                                                                       Issue Date
                                                                       September 26, 2007

                                                                       Audit Report Number
                                                                       2007-AT-1011




TO:        Dominique Blom, Deputy Assistant Secretary for Public Housing Investment, PI

           William H. Melvin, Director, Atlanta Multifamily Property Disposition Center,
           4AHMLAT

           Henry S. Czauski, Acting Director, Departmental Enforcement Center, CV


FROM:      James D. McKay
           Regional Inspector General for Audit, 4AGA

SUBJECT:   The Wilmington Housing Authority, Wilmington, North Carolina, Did Not
           Follow HUD Requirements for Its Nonprofit Development Activities


                                  HIGHLIGHTS

 What We Audited and Why

           As part of the U.S. Department of Housing and Urban Development (HUD),
           Office of the Inspector General’s (OIG) strategic plan, we audited the Wilmington
           Housing Authority (Authority) in Wilmington, North Carolina. Our audit
           objective was to determine whether the Authority violated requirements when it
           noncompetitively procured services from its affiliate, Housing and Economic
           Opportunities, Inc., and whether it returned program income to HUD in
           accordance with its Up-Front Grant Special Warranty Deed.

 What We Found


           The Authority did not follow requirements for selection of its affiliated nonprofit
           entity to be a development partner for two of the Authority’s development


Table of Contents
            projects. As a result, it inappropriately paid its affiliate more than $296,000 in
            HOPE VI funds. Also, in violation of its Special Warranty Deed with HUD’s
            Multifamily Property Disposition Center, the Authority inappropriately allowed
            its affiliate to retain more than $1.2 million in program income it received from
            home sales.


What We Recommend


            We recommend that HUD require the Authority to (1) repay $296,655 from
            nonfederal funds to its HOPE VI program, (2) implement procedures to ensure
            that it follows Notice: PIH-2007-15 for transactions with its affiliate, (3) return to
            HUD $1.2 million in program income received by its affiliate, and (4) implement
            procedures to ensure that the affiliate recaptures home sales proceeds and returns
            the appropriate amount to the Federal Housing Administration insurance fund.

            We also recommend that the director of the Atlanta Enforcement Center, in
            coordination with the director of the Multifamily Division, take appropriate
            administrative action against the Authority and affiliate for not complying with
            Up-Front Grant Special Warranty Deed requirements.

            For each recommendation without a management decision, please respond and
            provide status reports in accordance with HUD Handbook 2000.06, REV-3.
            Please furnish us copies of any correspondence or directives issued because of the
            audit.


Auditee’s Response


            We discussed the findings with the Authority and HUD officials during the audit.
            We provided a copy of the draft report to Authority officials on August 21, 2007,
            for their comments and discussed the report with the officials at the exit
            conference on August 30, 2007. The Authority provided its written comments to
            our draft report on September 12, 2007.

            The Authority generally disagreed with the findings and recommendations. The
            complete text of the auditee’s response, along with our evaluation of that
            response, can be found in appendix B of this report.




 Table of Contents

                                         2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The Authority Did Not Follow Federal Regulations for Obtaining   5
                 Services from Its Affiliate
      Finding 2: The Authority Did Not Follow the Terms of Its Up-Front Grant     8
                 Special Warranty Deed

Scope and Methodology                                                             12

Internal Controls                                                                 13

Follow-up on Prior Audits                                                         15

Appendixes
   A. Schedule of Ineligible Costs                                                16
   B. Auditee Comments and OIG’s Evaluation                                       17




                                       3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Wilmington, North Carolina (Authority), was incorporated
on December 9, 1940, pursuant to the North Carolina Housing Authorities Law. The Authority’s
primary objective is to provide decent, safe, and sanitary housing for eligible families in a
manner that promotes serviceability, economy, efficiency, and stability of the projects and the
economic and social well-being of the tenants. The Authority administers 1,163 units funded
under the public housing program and more than 1,700 housing choice vouchers. A nine-
member board of commissioners appointed by the mayor of Wilmington governs the Authority
with R.T. Horton, Jr., serving as chairperson. Benjamin Quattlebaum, II, has served as the
executive director of the Authority since 2001.
The Authority is the parent company of Housing and Economic Opportunities, Inc., an affiliate
corporation organized in 1998 exclusively to develop and operate affordable housing and to
promote comprehensive economic development. The affiliate’s staff is a mix of employees on
loan from the Authority and affiliate employees. The affiliate’s board of directors currently
consists of eight members from the Authority’s board of commissioners and two additional
board members not associated with the Authority. The Authority’s executive director is the chief
executive officer of the affiliate.
In 1996, HUD awarded the Authority a HOPE VI grant to demolish existing structures and
develop affordable housing, public housing, and a community center for a project known as
Jervay Place. In 2004, HUD awarded the Authority a HOPE VI grant to demolish the Taylor
Homes low-income public housing development. The Authority and its affiliate entered into
agreements whereby the affiliate acted as developer for each of the projects.
In 2001, HUD sold a foreclosed property, formerly known as Dove Meadows Apartments, to the
Authority for $1. HUD also provided the Authority with a $6 million Up-Front Grant to develop
130 single-family homes for the project, now known as Sunset South. The Authority also
entered into a memorandum of understanding with its affiliate whereby the affiliate became the
developer and was given sole responsibility for all construction of the Sunset South project.
On March 9, 2007, we issued audit report 2007-AT-1004, regarding the Authority’s failure to
implement adequate internal controls to ensure that program funds were used only for eligible
program activities or that costs were properly allocated and supported. As a result of those
weaknesses, we decided to review the Authority’s development activities with its affiliate. Our
objective for this audit was to determine whether the Authority violated requirements when it
noncompetitively procured services from its affiliate, Housing and Economic Opportunities, Inc.,
and whether it returned program income to the U.S. Department of Housing and Urban
Development (HUD) in accordance with its Up-Front Grant Special Warranty Deed.




 Table of Contents
                                          4
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Follow Federal Regulations for
           Obtaining Services from Its Affiliate
The Authority did not follow requirements for selection of its affiliated nonprofit entity, Housing
and Economic Opportunities, Inc., to be a development partner for two of its development
projects. Specifically, the Authority did not properly procure its affiliate for one project and did
not document a cost reasonableness analysis and assess the ability of its affiliate to perform as
the developer for another project. This occurred because Authority officials incorrectly
considered the affiliate to be an instrumentality rather than an affiliate. Thus, they believed that
procurement, cost reasonableness analysis, and performance assessments were not required. As
a result of the failure to follow requirements, the Authority inappropriately paid its affiliate more
than $296,000 in HOPE VI funds.



The Authority Inappropriately
Paid $296,655 to Its Affiliate


               The provisions of 42 U.S.C. [United States Code] 1437k and its implementing
               regulations, found at 24 CFR [Code of Federal Regulations] 943.140, allow the
               Authority and its affiliate to enter into agreements for services using
               noncompetitive, sole source procurement. These agreements are considered
               partnerships or joint ventures between the Authority and its affiliate. Selection of
               a partner through noncompetitive, sole source procurement is not subject to the
               federal procurement requirements of 24 CFR Part 85 as long as the Authority
               conducts and documents a cost reasonableness analysis of its selection and
               assesses the ability of the selected group to perform.

               Mixed-finance projects are subject to 24 CFR 941, subpart F. For mixed-finance
               projects, the Authority must select a developer/partner based on competitive
               bidding (24 CFR 85), or qualifications (24 CFR 941.602(d)), or an alternative
               procurement plan (non-competitive procurement) that has been approved by
               HUD.

               The Authority obtained the services of its affiliate to serve as a development
               partner for three developments - Jervay Place, Taylor Homes, and Sunset South.
               It did not follow procurement regulations for any of the three projects. For the
               Jervay Place and Taylor Homes developments, the Authority inappropriately paid
               its affiliate $247,744 and $48,911, respectively. For Sunset South, the Up-Front
               Grant agreement allowed the Authority to use the affiliate as the developer.
               Finding 2 addresses other issues regarding Sunset South.


   Table of Contents
                                            5
           Jervay Place

           In 1996, HUD awarded the Authority a HOPE VI grant to demolish existing
           structures and develop affordable housing, public housing, and a community
           center. The Authority also utilized funds from sources other than HOPE VI to
           develop the project, known as Jervay Place, making the project a mixed-finance
           activity.

           The Authority properly procured a developer for the project using competitive
           bidding and entered into a contractual agreement with the developer. After years
           of minimal progress, the developer and the Authority agreed to allow the
           Authority’s affiliate to serve as codeveloper. The developer and the affiliate
           formed a limited liability corporation, whereby the affiliate became a
           codeveloper.

           Phase II of the development, construction of a community center, did not progress
           in a timely manner. Thus, the Authority elected to remove the developer, with
           which its affiliate had formed the partnership, from this phase. However, when
           the Authority released the developer and negated its contract, there was no
           existing contract between the Authority and its affiliate, only a Memorandum of
           Understanding. The Memorandum of Understanding between the Authority and
           affiliate does not comply with the requirements listed in 24 CFR 941, subpart F.
           A proper contract is required between an Authority and all non-instrumentality
           development partners.

           We do not question non-HUD funds paid to the affiliate by the Authority for the
           mixed-finance project. However, the $247,744 in HOPE VI grant funds that the
           Authority paid the affiliate for developer’s fees, construction costs, and other
           services rendered for the community center development is ineligible.

           Taylor Homes

           In 2004, HUD awarded the Authority a HOPE VI grant to demolish the Taylor
           Homes low-income public housing development. The Authority’s affiliate
           provided oversight services for the demolition. However, the Authority did not
           consider cost reasonableness or the ability of the affiliate to perform before
           obtaining the services as required by 24 CFR 943.140. Thus, the $48,911 that the
           Authority paid its affiliate for salary expenses, administrative expenses, and
           developer fees is ineligible.




Table of Contents

                                       6
Planned Developments
Involving the Affiliate


             According to its HUD-approved annual plan and its internally generated master
             plan, the Authority had planned development activities estimated to cost $123
             million, of which activities costing approximately $38 million were planned to
             begin by August 2008. The sources of funds for these planned activities were
             uncertain. However, it is likely that the Authority’s affiliate would be the
             developer because of a memorandum of understanding between the Authority and
             its affiliate that gave the affiliate the first right of refusal for all future
             development activities. The Authority did not have necessary procedures in place
             to ensure that it followed regulations before hiring its affiliate as the developer.
             Thus, the Authority needs to implement procedures to ensure that it complies with
             requirements before it obtains additional services from its affiliate.


 Recommendations



             We recommend that the Deputy Assistant Secretary for the Office of Public
             Housing Investment require the Authority to

             1A. Repay $247,744 from nonfederal funds to its HOPE VI program,
                 representing ineligible amounts paid to the affiliate for phase II Jervay Place
                 development services.

             1B. Repay $48,911 from nonfederal funds to its HOPE VI program, representing
                 ineligible amounts paid to the affiliate for oversight services at Taylor
                 Homes.

             1C. Implement procedures to ensure that the Authority follows the requirements
                 of Notice: PIH-2007 – 15 (HA), Subject: “Applicability of Public Housing
                 Development Requirements to Transactions between Public Housing
                 Agencies and their Related Affiliates and Instrumentalities” if it contracts
                 with the affiliate for future development activities.




 Table of Contents


                                         7
Finding 2: The Authority Did Not Follow the Terms of Its Up-Front
           Grant Special Warranty Deed
In violation of Rider 4 and Rider 5 of the Up-Front Grant Special Warranty Deed, the Authority
did not report or return to HUD more than $1.2 million in program income received from home
sales. 1 Rather, it allowed its affiliate to retain all of the proceeds. This condition occurred
because Authority officials misinterpreted the equity participation restrictions on program
income as listed in the Special Warranty Deed. As a result, the funds were not available to the
Federal Housing Administration (FHA) insurance fund for future use.



    Background

                 On August 20, 2001, the Authority entered into an agreement with the HUD
                 Atlanta Multifamily Property Disposition Center, whereby HUD sold a foreclosed
                 property, formerly known as Dove Meadows Apartments, to the Authority for $1.
                 The Authority was to demolish the existing structures, rebuild single-family
                 homes, and sell the properties to eligible purchasers. HUD provided the
                 Authority with a $6 million grant to develop 130 single-family homes. The
                 Authority then deeded the property, now known as Sunset South, to its affiliate,
                 Housing and Economic Opportunities, Inc., on March 26, 2003, and provided the
                 affiliate the remaining grant proceeds of approximately $5.3 million. 2 The
                 Authority also entered into a memorandum of understanding with its affiliate on
                 May 12, 2004, whereby the affiliate became the developer and was given sole
                 responsibility for all construction of the Sunset South project. In addition to the
                 grant funds, the affiliate obtained a bank loan for $370,592, borrowed $300,560
                 against a line of credit, and used more than $14.7 million in home sales proceeds
                 to finance the development. Thus, total funds for the development totaled nearly
                 $21.4 million.

    Uses of Funds


                 As the Authority or affiliate incurred development expenses, it submitted
                 requisition requests to HUD’s Atlanta Multifamily Property Disposition Center,
                 listing the actual expenditures and/or invoices due and payable within the next 30
                 days. The Authority or affiliate drew down the full amount of $6 million. The
                 funds were reportedly used primarily for construction hard costs (more than $5.7
                 million). A small portion went for building permits ($250,000) and an
                 environmental survey ($5,000). We did not review the costs to determine their
                 validity.

1
  The HUD Multifamily Property Disposition Center awarded the grant using FHA funds. Thus, the Authority
should return program income to HUD for deposit to the insurance fund for future use.
2
  The Authority previously used $674,226 of the grant funds for demolition expenses.


    Table of Contents                           8
          The affiliate used the funds from the bank loan ($370,592) and line of credit
          ($300,560) to pay for infrastructure, residential development, and related soft
          costs.

          The third source of funding for the development project was the proceeds from
          the home sales. The affiliate selected a contractor to build the single-family
          homes. The contractor agreed to build the homes at fixed prices based on the
          model of the home. The contractor paid all construction costs and was
          reimbursed by the affiliate for each home as the affiliate sold the home and
          received the sales proceeds. Generally, the affiliate sold the homes for more than
          the price charged by the contractor. Gross sales proceeds were more than $14.7
          million. In addition to paying the contractor, the affiliate used the sales proceeds
          to pay off the bank loan and line of credit, pay itself for developer and
          contingency fees, and pay other development costs.

Sources and Uses of Funds
Statement Inaccurate


          The affiliate submitted a sources and uses of funds statement to HUD on August
          14, 2006, showing funding sources totaling more than $21.2 million. Both the
          reported sources and their amounts were inaccurate. For example, the affiliate
          claimed that it received a loan for $8.47 million, which it did not receive. Further,
          the affiliate did not report any of the $14.7 million in sales proceeds.

          The total funds received were nearly $21.4 million, including grant funds, bank
          loan proceeds, and gross home sales proceeds. The following table shows the
          reported and actual sources of funds.

                      Source of funds                Reported             Actual

             HOPE VI grant                           $ 2,140,000 $                  0
             Wilmington Housing Authority                500,000                    0
             Authority’s special projects              2,229,642                    0
             account
             Bank loan                                 8,470,000                  0
             Bank loan                                 1,007,012            370,592
             Bank loan/line of credit                    900,000            300,560
             Up-Front Grant                            6,000,000          6,000,000
             Sales of homes                                    0         14,724,808
             Total                                  $ 21,246,654       $ 21,395,960

          Upon completion of the development, the affiliate submitted a certificate of actual
          costs to HUD showing total costs of more than $20.18 million. The difference
          between actual sources and certified uses equaled $1,209,306 ($21,395,960 -


  Table of Contents
                                       9
                  $20,186,654). As previously stated, the affiliate used all of the grant funds and
                  paid back the bank loan and line of credit in full. Thus, the net difference of
                  $1,209,306 is attributable to home sales proceeds received by the affiliate.

                  As part of the property conveyance, HUD and the Authority executed a Special
                  Warranty Deed containing additional requirements and restrictions. Rider 4,
                  paragraph 2, of the deed required that all of the sales proceeds from homes sold
                  within 15 years from the date HUD sold the property to the Authority, less any
                  expenses incurred, be returned to HUD. In violation of the Special Warranty
                  Deed, the Authority inappropriately allowed its affiliate to retain the $1,209,306.
                  The Authority did not follow the deed because it misinterpreted the provision
                  requiring these proceeds to be returned.

    Affiliate Allowed to Retain
    Home Sales Proceeds

                  Rider 5 of the Special Warranty Deed governed the sale of the homes by the
                  qualified homebuyers. It provided that if a homebuyer sold his/her home within
                  15 years from the date of the deed, the homebuyer would be required to return a
                  percentage of the sales proceeds, less approved expenses, to the affiliate. 3 If a
                  homebuyer sold his/her home within the first five years, he/she would be required
                  to return 100 percent of any sales proceeds. Paragraph 7 of the Special Warranty
                  Deed provided that 50 percent of all such proceeds must be returned to HUD.
                  During our review period, six homebuyers sold their homes and generated total
                  sales proceeds of $27,405 after deducting allowed expenses. The homebuyers
                  were required to return the $27,405 to the Authority’s affiliate, and the affiliate
                  was required to return 50 percent, or $13,702, to HUD. However, the
                  homebuyers only returned $3,681 to the affiliate. None of the proceeds were
                  returned to HUD.

                  The affiliate did not have adequate procedures to restrict the homebuyers from
                  selling the homes without notifying the affiliate and returning any net sales
                  proceeds. Rather than placing restrictions on the deeds to prevent sales without
                  its knowledge, the affiliate added an addendum to the sales contracts that required
                  the homebuyers to notify the affiliate before selling their homes and to provide a
                  copy of the settlement statement to the affiliate immediately following the sale.




3
 For this purpose, “sales proceeds” is defined as all amounts paid or obligations assumed by the new purchaser of a
unit except reasonable transaction costs; purchase price paid by the original qualified homebuyer; and costs incurred
by the original qualified homebuyer related to improvements, renovation, and rehabilitation but specifically
excluding routine maintenance and repairs.


    Table of Contents                              10
Recommendations


          We recommend that the director of the Atlanta Multifamily Division require the
          Authority to

          2A. Return more than $1.2 million to the FHA insurance fund, representing
              program income retained from home sales proceeds for the Sunset South
              development project.

          2B. Return $13,702 to the FHA insurance fund, representing sales proceeds
              received by homebuyers upon sales of their properties.

          2C. Implement procedures to ensure that the affiliate recaptures home sales
              proceeds and returns the appropriate amount to the FHA insurance fund.

          We also recommend that the acting director of the Departmental Enforcement
          Center, in coordination with the director of the Atlanta Multifamily Division,

          2D. Take appropriate administrative action against the Authority and affiliate for
              not complying with Up-Front Grant Special Warranty Deed requirements.




 Table of Contents

                                      11
                        SCOPE AND METHODOLOGY

Our audit objective was to determine whether the Authority violated procurement regulations
when it noncompetitively procured services from its affiliate and whether it returned program
income to HUD in accordance with its Up-Front Grant Special Warranty Deed. To accomplish
our objective, we

   •    Reviewed applicable laws, regulations, and other HUD program requirements, including
        applicable sections of 24 CFR [Code of Federal Regulations], 42 U.S.C. [United States
        Code] 1437(k), and HUD Handbook 7460.8.

   •    Interviewed HUD, Authority, and affiliate management and staff.

   •    Reviewed various Authority and affiliate documents, including memorandum of
        understanding agreements, grant agreements, minutes from board meetings, policies and
        procedures, financial records, and files for each development project.

We conducted our audit from February through June 2007 at both the Authority’s and the
affiliate’s offices in Wilmington, North Carolina. Our audit period was from April 1, 2001,
through March 31, 2007. We expanded our audit period as needed to accomplish our objectives.

We performed our review in accordance with generally accepted government auditing standards.




       Table of Contents

                                          12
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       • Effectiveness and efficiency of operations,
       • Reliability of financial reporting, and
       • Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


We determined the following internal controls were relevant to our audit objectives:

       •    Compliance with laws and regulations - Policies and procedures that management
            has implemented to reasonably ensure that resource use is consistent with laws and
            regulations.

       •    Safeguarding of resources - Policies and procedures that management has
            implemented to reasonably ensure that resources are safeguarded against waste, loss,
            and misuse.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.


 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

       •    The Authority did not have procedures to ensure that it followed federal procurement
            regulations when dealing with its affiliate corporation (finding 1).

       •    The Authority did not have proper procedures to ensure that the affiliate returned


  Table of Contents                        13
        program income generated from the grant project as required by the Special
        Warranty Deed (finding 2).




Table of Contents


                                      14
                        FOLLOWUP ON PRIOR AUDITS

 Office of Inspector General (OIG) audit report 2007-AT-1004, issued March 9, 2007, reported
 that Authority management failed to implement adequate internal controls to ensure that program
 funds were used only for eligible program activities or that costs were properly allocated and
 supported. As a result, in violation of its annual contributions contract with HUD, the Authority
 inappropriately used $744,916 in operating subsidies to pay expenses of other federal and
 nonfederal programs. In addition, it could not support that it appropriately spent more than
 $880,000 in accordance with requirements. The report was issued during our field work;
 however, we were aware of the weaknesses and considered them in planning and conducting our
 review. The report contained 20 recommendations, two of which impacted our audit objectives:
      1A. Develop and implement procedures which ensure that program funds are used only
          for eligible program activities.
      1I.   Exclude all public housing funds from its central account until such time as the
            director determines that the Authority has adequate internal controls over its cash
            disbursements.
 We agreed with HUD’s management decisions on all 20 of the recommendations on June 25,
 2007. Fifteen of the recommendations remain open pending completion of corrective actions.




Table of Contents

                                            15
                                       APPENDIXES
Appendix A

                     SCHEDULE OF INELIGIBLE COSTS


                               Recommendation         Ineligible 1/
                                      number

                                     1A               $ 247,744
                                     1B                   48,911
                                     2A                1,209,306
                                     2B                   13,702
                                    Total             $1,519,663

1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
   that the auditor believes are not allowable by law; contract; or federal, state, or local polices
   or regulations.




 Table of Contents

                                            16
Appendix B

AUDITEE COMMENTS AND OIG’S EVALUATION



Ref to OIG Evaluation          Auditee Comments




Table of Contents
                              17
Ref to OIG Evaluation    Auditee Comments




Comment 1




Comment 2




Comment 3




   Table of Contents
                        18
Ref to OIG Evaluation    Auditee Comments




Comment 2




   Table of Contents

                        19
Ref to OIG Evaluation    Auditee Comments




Comment 3




  Table of Contents

                        20
Ref to OIG Evaluation    Auditee Comments




Comment 4




   Table of Contents

                        21
Ref to OIG Evaluation    Auditee Comments




Comment 4




Comment 5




   Table of Contents

                        22
OIG Evaluation of Auditee Comments


Comment 1      Authority officials stated that they believed Housing and Economic
               Opportunities, Inc. was an instrumentality of the Authority and not an
               affiliate.
               We used criteria contained in Title 24 [Code of Federal Regulations] 811 by
               which HUD considers an entity to be an instrumentality. The criteria define
               an instrumentality as a non-profit authorized to work with low-income
               housing, which has a specified relationship with a governmental entity, the
               "parent entity PHA," that also works with low-income housing. The
               regulations go on to state that the parent Public Housing Authority must
               possess various rights and powers over the instrumentality, including: (1) the
               power to approve the agency or instrumentality's charter and bylaws; (2) the
               power to approve its projects, programs and expenditures; (3) a right of access
               to its books and records; and (4) a right to its real and personal property upon
               dissolution.
               While the relationship with Housing and Economic Opportunities, Inc.
               satisfies several criteria mentioned above, in our opinion, it does not rise to
               the level of an agency or instrumentality PHA. Specifically, the entity’s
               Articles of Incorporation did not list the Authority as the recipient of real and
               personal property upon dissolution. Additionally, the former Director of
               Housing and Economic Opportunities, Inc. stated on numerous occasions that
               he believed the entity was an affiliate and that it planned to conduct
               development work for entities other than the Authority. He said the Authority
               would not have control over all activities if Housing and Economic
               Opportunities, Inc. conducted development activities for third parties. Based
               on the fact that the criteria were not fully met, we consider Housing and
               Economic Opportunities, Inc. an affiliate of the Authority and not an
               instrumentality.
               After completion of our field work, HUD issued Notice: PIH-2007 – 15 (HA),
               Subject: “Applicability of Public Housing Development Requirements to
               Transactions between Public Housing Agencies and their Related Affiliates
               and Instrumentalities”. This Notice provides additional guidance to PHAs to
               assist them in avoiding violations. The criteria we used during the audit are
               consistent with the guidance contained in the Notice. However, we
               incorporated the new Notice in recommendation 1C.

Comment 2      We agree with the Authority's response that Jervay Homes is a mixed-finance
               project and clarified the finding that these activities are subject to Title 24
               CFR 941, subpart F as opposed to 24 CFR 943.

               For mixed-finance projects, the Authority must select a developer/partner
               based on competitive bidding (24 CFR 85), or qualifications (24 CFR


   Table of Contents                    23
              941.602(d)), or an alternative procurement plan (non-competitive
              procurement) that has been approved by HUD. We agree with the statement
              that Telesis North Carolina Corporation was properly procured as the
              developer of the Jervay project using competitive bidding procurement.
              Furthermore, Telesis partnered with Housing and Economic Opportunities,
              Inc. to complete phase II of the Jervay project. However, when Telesis's
              contract was negated and it was released from developer duties, there was no
              existing contract between the Authority and Housing and Economic
              Opportunities, Inc. meeting the procurement requirements listed above, only a
              Memorandum of Understanding. The Memorandum of Understanding
              between the Authority and affiliate does not comply with 24 CFR 85, 24 CFR
              941.602(d), and was not approved by HUD. As an affiliate (see comment 1),
              a proper contract is required between an Authority and development partners.
              Thus, we maintain that the affiliate was not properly selected as sole
              developer and $247,744 in funds paid from the Authority's HOPE VI grant
              accounts to its affiliate is ineligible.

Comment 3     The Authority did not follow 24 CFR 943.148(b) for noncompetitive, sole
              source selection of its affiliated nonprofit entity, Housing and Economic
              Opportunities, Inc., to be a development partner for Taylor Homes.
              Specifically, it did not complete a formal cost reasonableness analysis and an
              assessment of the affiliate’s ability to perform. The May 9, 2007 letter to
              HUD-OIG "providing rationale for determining HEO's ability to oversee the
              demolition work as well as the basis for the Authority's determination that the
              compensation paid to HEO on Taylor Homes was well below industry
              standard" does not constitute a formal cost reasonableness analysis or
              assessment of the affiliate's ability to perform.

              The Authority's lack of a cost reasonableness analysis and assessment of the
              affiliate's ability to perform is more than just a procedural deficiency. As
              noted previously, Housing and Economic Opportunities, Inc. is an affiliate of
              the Authority. As such, the Authority was required by federal regulations to
              conduct proper procurement measures in selecting a project manager for the
              Taylor Homes project. The applicable federal regulations require either
              competitive procurement (24 CFR 85.36) or cost reasonableness analysis and
              assessment of performance (24 CFR 943.148) when selecting an affiliate for
              development services. The Authority failed to conduct these requirements,
              thus, it violated federal regulations.

Comment 4     As discussed in the report, our position is based on Riders 4 and 5 of the
              Special Warranty Deed.

              The Authority contended they were exempt from the recapture provisions
              because Rider 5 was not cross-referenced to the portion of Rider 4 dealing
              with the definition of “sale.”


  Table of Contents
                                      24
              We discussed the equity participation riders with the Atlanta HUD
              Multifamily Property Disposition Center. HUD interprets Riders 4 and 5 of
              the Special Warranty Deed identically for all Up-Front Grants. HUD
              explained the intention of Up-Front Grant projects is not for the Authority or
              its affiliate to profit from home sales of low-income housing or to use home
              sales proceeds for separate housing projects. Although there is no specific
              cross reference from Rider 4 to Rider 5, we believe the intent of the riders is
              clear. Rider 4 is entitled "Equity Participation (Other than Homeownership)."
              Rider 5 is entitled "Equity Participation for Homeownership Purchasers as Set
              Forth in Redevelopment Plan”. These titles indicate that Rider 4 diverts
              requirements dealing with homeownership to Rider 5.

              WHA and its affiliate did not list gross home sale proceeds as a source in the
              final certified source and use statement or indicate that there were net home
              sale proceeds upon completion of the project. Therefore, HUD did not have a
              reason to question possible profit from home sales. Our position remains that
              home sale proceeds should have been returned as required.

Comment 5     We did not question the profit from developer fees, administrative fees,
              construction manager fees, and contingency fees paid to the affiliate. Our
              issue concerns home sale proceeds retained by the affiliate that should be
              returned to HUD as required.




  Table of Contents

                                      25
